CERTIFICATE OF SERVICE
No. TBD
Zoe Spencer
Petitioner(s)
v.
Virginia State University and Keith T. Miller
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the ZoE
SPENCER PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Jimmy F. Robinson
Ogletree, Deakins, Nash, Smoak & Stewart P.C.
Riverfront Plaza—West Tower
901 East Byrd Street, Suite 1300
Richmond, VA 23219
jimmy.robinson@ogletree.com
Counsel for Virginia State University and
Keith T Miller

Lucas eDeus

June 28, 2019
SCP Tracking: Spencer-4107 Overrdige Dr.-Cover White

